<html>
<title> - MANAGEMENT CHALLENGES FACING THE FEDERAL PROTECTIVE SERVICE: WHAT IS AT RISK?</title>
<body><pre>[Senate Hearing 110-593]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-593
 
                    MANAGEMENT CHALLENGES FACING THE
                      FEDERAL PROTECTIVE SERVICE:
                            WHAT IS AT RISK?

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
44-118 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
                Lisa Powell, Chief Investigative Counsel
             Jennifer A. Hemingway, Minority Staff Director
                Thomas Bishop, Minority Legislative Aide
                     Jessica Nagasako, Chief Clerk


                            C O N T E N T S




                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3
Prepared statement:
    Senator Lieberman............................................    31

                               WITNESSES
                        Thursday, June 19, 2008

Gary W. Schenkel, Director, Federal Protective Service, 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................     5
Mark L. Goldstein, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     6
David Wright, President, American Federation of Government 
  Employees Local 918, Federal Protective Service................    21

                     Alphabetical List of Witnesses

Goldstein, Mark L.:
    Testimony....................................................     6
    Prepared statement...........................................    41
Schenkel, Gary W.:
    Testimony....................................................     5
    Prepared statement...........................................    32
Wright, David:
    Testimony....................................................    21
    Prepared statement...........................................    66

                                APPENDIX

Hon. Paul Strauss, U.S. Senator (Shadow) from the District of 
  Columbia, prepared sttement....................................    84
Background.......................................................    88


                    MANAGEMENT CHALLENGES FACING THE
                      FEDERAL PROTECTIVE SERVICE:
                            WHAT IS AT RISK?

                              ----------                              


                         THURDAY, JUNE 19, 2008

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I want to welcome all of you here to this 
hearing, especially our witnesses. I call this hearing of the 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia to order.
    Today's hearing, Management Challenges Facing the Federal 
Protective Service: What is at Risk?, will examine the results 
of the Government Accountability Office's review of Federal 
Protective Service (FPS) management and operations.
    Approximately 1,100 FPS employees and 15,000 contract 
security guards protect 9,000 Federal facilities nationwide. 
More than one million Federal workers spend their days in these 
buildings in addition to millions of Americans who visit for 
government services, as tourists, or for other reasons. I 
requested that GAO conduct this review because I was concerned 
with the reports that FPS was weakened rather than strengthened 
by its transfer from the General Service Administration (GSA) 
to the Department of Homeland Security (DHS). I am sorry to say 
that my concern was well founded.
    The GAO report makes clear that Federal buildings remain 
vulnerable to terrorism and other crime. FPS has been in crisis 
since it moved to DHS. The problems are numerous. Budget 
shortfalls have forced FPS to postpone purchasing and repairing 
needed equipment, such as security cameras and X-ray machines. 
FPS cut its workforce by 20 percent and restricted employee 
training, overtime, hiring, promotions, and bonuses to reduce 
personnel costs. And FPS imposed new restrictions on employee 
travel, leaving FPS inspectors unable to oversee contract 
security guards located hours away.
    These measures have undermined FPS's ability to secure 
Federal buildings and encouraged many FPS employees to look for 
better opportunities elsewhere. It was clear that Congressional 
action was urgently needed when the Administration proposed to 
reduce FPS's workforce further to 950 employees.
    I cosponsored an amendment offered by Senator Clinton to 
the Fiscal Year 2008 Omnibus Appropriations Act which requires 
FPS to maintain no fewer than 1,200 employees and to raise the 
building security fees enough to fund FPS fully at that level. 
While that staffing level remains lower than FPS had until 
2007, it will start to ease the pressure on FPS employees. 
However, it will take years for new employees to build up the 
knowledge and expertise that was lost as FPS officers left the 
agency.
    In addition, understaffing has led to inadequate oversight 
of contract security guards and poor security guard 
performance. FPS does not have enough employees to oversee 
contract security guards properly. Some contract security 
guards are very rarely inspected because they are located far 
from the nearest FPS employee, or because they work nights or 
weekends when practically no FPS employees are on duty. Some 
FPS officers told GAO that they were instructed to conduct 
inspections of contract security guards over the telephone.
    With poor oversight comes poor performance. GAO 
investigators uncovered numerous troubling contract guard 
failures. FPS contract guards watched and did nothing as a FBI 
surveillance trailer was stolen from a parking garage, and on a 
different occasion as a shirtless man with handcuffs hanging 
from one wrist ran away from a FPS inspector. There are more 
examples in the report.
    This is a chronic problem in the Federal Government that 
has worsened under the current Administration with its heavy 
reliance on private contractors to do government work. We lack 
the skilled employees and resources necessary to oversee the 
work of private contractors. We must correct that mistake with 
FPS.
    Even under the best of circumstances, there are serious 
limits to what FPS contract security guards can do. Contract 
guards are not sworn law enforcement officers and they do not 
have arrest powers. We need a clear understanding of the 
restrictions on contract guards' authority and how they can be 
addressed.
    There is some good news. The recent security fee increase 
has allowed FPS to phase out some of the cost-cutting measures 
that I just described. The downside of the increase in fees is 
that many Federal agencies have had to divert operational funds 
to cover the higher fees. We need to begin to think seriously 
about FPS's funding and its fee structure. I am happy to hear 
that FPS agrees with that recommendation and will be examining 
its fee structure.
    I am also pleased that FPS agreed with all of GAO's 
recommendations and that the agency seems to be making progress 
on some issues. However, it is not clear if the Administration 
has yet recognized the challenges FPS faces, even if FPS's 
leadership has. The Administration's fiscal year 2009 budget 
again proposed to repeal the 1,200-employee requirement and to 
downsize FPS to 950 employees.
    We must continue to move forward with improving FPS. I will 
work to see that Congress focuses the attention and resources 
needed on this effort. I look forward to hearing more about 
FPS's challenges and progress, in particular the issues that I 
just highlighted. I want to thank our witnesses again for being 
here today to discuss these critical issues.
    I will now turn to my friend, Senator Voinovich, for any 
opening statement that he would like to make. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Chairman Akaka. I really 
appreciate the fact that you are having this hearing today in 
regard to the Federal Protective Service.
    I must tell you that I have more than a passing interest in 
this because in our Cleveland office, we are a tenant in the 
Anthony J. Celebrezze Building. I had a choice of whether I was 
going to go into that Federal building or continue the private 
leasing of another facility and I said, if I am going to be a 
Senator and I am going to have the General Service 
Administration under my jurisdiction, I ought to be in the 
building and find out about the management.
    The ability of FPS to meet its mission to protect the 
buildings, grounds, and property that are owned, occupied, or 
secured by the Federal Government and persons on the property, 
I believe has continued to deteriorate since its transfer to 
the Department of Homeland Security in 2003. For the life of 
me, I can't understand why we did that, but we went ahead and 
did it. If you have somebody managing the building, they are 
worrying about the heating and cleaning and the security. But 
in 2003 we basically said, no, that is no longer GSA's 
responsibility. We are going to put building security into 
somebody else's hands.
    It seems that FPS has become kind of a second-class citizen 
within the Department at the expense of public security and 
employee morale. One cannot say with certainty whether or not 
the problems we will discuss today existed when FPS was under 
the umbrella of the General Service Administration, although I 
doubt that. However, from an organizational perspective, there 
are obvious efficiencies to agency tenants, as I mentioned, 
when they have a single landlord responsible for property 
management, from turning the lights on to securing the doors.
    Each day, FPS is responsible for protecting more than one 
million Federal employees in 9,000 buildings across the 
country. In addition, they protect the thousands of citizens 
who visit Federal buildings daily to access basic government 
services, such as applying for Social Security or veterans' 
benefits.
    In Ohio, there are only 16 FPS employees responsible for 
overseeing the security of more than 200 Federal buildings. 
Thankfully, we have not suffered a large-scale attack which 
would expose our low level of readiness.
    The GAO report that prompted these hearings paints a 
troubling picture of operational challenges, management 
problems, and poor coordination inside and outside of FPS. To 
meet their budget, FPS was forced to make poorly-timed cuts in 
funding for training and retention bonuses. That is part of it. 
We didn't give them enough money to do the job.
    There are questions of how the basic security fee is 
calculated, and FPS lacks the information necessary to measure 
its effectiveness. It seems to me that fees should be more 
closely modeled on the risk-based formula the Department of 
Homeland Security uses when allocating a number of its Homeland 
Security grants. It depends on what the situation is in terms 
of the threat assessment.
    Last and perhaps more troubling, there is little or no 
evidence of FPS outreach to local law enforcement. The support 
of local law enforcement becomes increasingly important as FPS 
transitions to an inspector-based workforce. It seems that 
lessons learned from Hurricane Katrina on the need to establish 
working relationships in advance, before an event, haven't been 
applied to the security of our Federal buildings. To my 
knowledge, there isn't any real communication between the FPS 
employees in the Celebrezze Building and the Cleveland Police 
Department.
    Director Schenkel, you inherited many of these problems and 
I commend you for recognizing the need to follow through on the 
GAO recommendations. As a career Senior Executive, you will 
have the opportunity to continue to lead the change in the new 
Administration. Acknowledging the problem is the beginning of 
finding a solution. I hope you will continue to keep the 
Subcommittee informed of your progress and call on us to assist 
you in reaching your goals. The end result will be a more 
secure environment for Federal employees and the citizens they 
serve, and a FPS workforce that is proud to serve.
    I would like to thank the witnesses that are here today for 
coming to testify before this Subcommittee.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I welcome to the Subcommittee today's first panel of 
witnesses, Gary Schenkel, who is the Director of the Federal 
Protective Service, and Mark Goldstein, who is the Director for 
Physical Infrastructure Issues at the Government Accountability 
Office.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. I would ask both of you to stand and raise 
your right hand.
    Do you solemnly swear that the testimony you are about to 
give the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Schenkel. I do.
    Mr. Goldstein. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    Mr. Schenkel, will you proceed with your statement? Before 
that, I want you to know that while your oral statements are 
limited to 5 minutes, your entire written statements will be 
included in the record.
    Mr. Schenkel, will you please proceed?

TESTIMONY OF GARY W. SCHENKEL,\1\ DIRECTOR, FEDERAL PROTECTIVE 
 SERVICE, IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Schenkel. Chairman Akaka and Ranking Member Voinovich, 
thank you for the opportunity to appear before you today to 
address the concerns raised in the report issued by the 
Government Accountability Office and to discuss the business 
improvements that FPS has made over the past 3 years and our 
vision for the future.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schenkel appears in the Appendix 
on page 32.
---------------------------------------------------------------------------
    As this Subcommittee is aware, auditors from the Government 
Accountability Office recently had the opportunity to sample 
the day-to-day work performed by the Federal Protective 
Service. We appreciate the thoroughness of the audit and 
welcome the recommendations for improving FPS. Audited work 
products are used throughout ICE for the betterment of the 
agency, including within FPS.
    With this in mind, I believe that it is necessary to 
address some of the points raised in the GAO report. Some 
additional context is needed.
    The transfer of FPS into the Department of Homeland 
Security, Immigration and Customs Enforcement, provided an 
opportunity for FPS to comprehensively assess its mission and 
to ensure that its activities were focused on enhancing the 
security of Federal facilities it protects. FPS has embarked on 
a strategic approach to ensure that its operations are not only 
fully aligned with the goals and objectives of ICE and its 
stakeholders, but also that they move FPS towards greater 
compliance with the standards for internal control established 
by the GAO.
    Using this strategic approach and Congress's support and 
guidance, we have significantly enhanced our business 
processes, including contracting functions. For example, we 
have improved the procurement process for guard services that 
in the National Capital Region alone, have reduced the cost of 
three new security guard contracts by $5.5 million in fiscal 
year 2008, savings that were passed directly on to the agency 
client.
    This strategic approach has resulted in a number of 
achievements, including in 2007 FPS eliminated a backlog of 
2,200 invoices worth $92 million, some of which predated the 
transfer to the Department of Homeland Security. To improve 
FPS's invoice payment process, ICE FPS consolidated the entire 
process by requiring that all invoices be sent to a single 
location. Since the beginning of fiscal year 2008, FPS has paid 
95 percent of all invoices within 30 days, and in the month of 
May the percentage of payments paid within 30 days rose to 99.5 
percent. Part of the success and timeliness of invoice payments 
is the fact that we added contracting officer technical 
representative training to our basic training curriculum.
    FPS improved working relationships with its internal and 
external stakeholders through newsletters and regular 
communications. FPS also provided customer service training to 
employees and used satisfaction surveys to gauge its success at 
providing comprehensive security services that are meaningful 
for FPS stakeholders. FPS formally chartered an Executive 
Advisory Council to coordinate security strategies and 
activities, policy, and communication with the Federal 
Department and agency occupants of GSA-controlled facilities.
    FPS also conducted a number of focus groups with 
stakeholders to identify and resolve issues and to identify 
systemic problems. The focus groups enabled us to immediately 
identify a common concern of all our clients in that they want 
FPS personnel to increase the level of physical security 
functions, such as contract oversight, qualified building 
service security assessments, and higher visibility throughout 
the service.
    Among the most important improvements from a strategic 
approach is our movement to the Law Enforcement Security 
Officer or inspector-based workforce, which will meet these 
customer concerns while affording the added protection of law 
enforcement presence. To put in proper perspective the 
importance and advantage of transferring FPS's workforce, FPS 
was responsible for protecting 9,000 buildings in 2003. At that 
time, only 55 percent of FPS's law enforcement staff was 
qualified to conduct BSAs, a core FPS activity.
    FPS made a conscious decision to integrate the entire 
security program by making the countermeasure program a true 
extension of its law enforcement activities by combining those 
responsibilities of a Law Enforcement Security Officer. A Law 
Enforcement Security Officer-based force allows the FPS 
necessary flexibility to provide law enforcement and immediate 
corrective action to contract security guards. Under the prior 
bifurcation of security operation, law enforcement had little 
or no oversight for the contract guard program.
    Notwithstanding the important issues raised and recommended 
by the GAO, we agree with all that they have recommended.
    I am extremely pleased to lead the proud and professional 
men and women of the Federal Protective Service. I interact 
with them every day. I can tell you that they are dedicated, 
determined, and committed to developing, implementing, and 
maintaining the security systems to ensure that facilities they 
are charged with protecting are secure and that their occupants 
are safe. I am confident that they can be relied upon to ensure 
that FPS will continue to be able to meet the challenges of its 
homeland security mission.
    Thank you again, Chairman Akaka and Ranking Member 
Voinovich, for holding this important oversight hearing. I 
would be pleased to answer any questions you may have.
    Senator Akaka. Thank you very much for your statement, Mr. 
Schenkel.
    Mr. Goldstein, please proceed with your statement.

     TESTIMONY OF MARK L. GOLDSTEIN,\1\ DIRECTOR, PHYSICAL 
  INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you very much, Chairman and Mr. 
Voinovich. We are pleased to be here to discuss the efforts of 
the Federal Protective Service in protecting Federal employees, 
the public, and GSA facilities. As you know, in 2003, FPS 
transferred from the General Service Administration to the 
Department of Homeland Security and is responsible for 
providing physical security and law enforcement services to 
about 9,000 GSA buildings. Within DHS, FPS is part of the 
Immigration and Customs Enforcement component, the largest 
investigative arm of DHS.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goldstein appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    This testimony provides information and analysis on FPS's 
operational challenges and actions it has taken to address 
them, funding challenges FPS faces and actions it has taken to 
address them, and how FPS measures the effectiveness of its 
efforts to protect GSA facilities. The testimony is based on 
our report issued yesterday, ``GAO Homeland Security: Federal 
Protective Service Faces Several Challenges that Hamper Its 
Ability to Protect Federal Facilities.''
    My testimony summarizes the following: First, FPS continues 
to face several operational challenges that have hampered its 
ability to accomplish its mission to protect GSA facilities and 
the actions it has taken may not fully resolve these 
challenges. Since the transfer, while FPS has maintained 15,000 
contract guards, its staff has decreased by about 20 percent, 
from almost 1,400 employees at the end of fiscal year 2004 to 
about 1,100 employees at the end of fiscal year 2007. This 
decrease in staff has contributed to diminished security and 
increased the risk of crime or terrorist attacks at many GSA 
facilities.
    For example, FPS has decreased or eliminated law 
enforcement services such as proactive patrol in each of its 11 
regions. In addition, FPS officials at several regions we 
visited said that proactive patrol has in the past allowed its 
officers and inspectors to identify and apprehend individuals 
that were surveiling GSA facilities. In contrast, while FPS is 
not able to patrol Federal buildings, there is an increased 
potential for illegal entry and other criminal activity at 
Federal buildings. Moreover, FPS has not resolved longstanding 
challenges, such as improving the oversight of its contract 
guard program.
    In addition, FPS faces difficulties in ensuring the quality 
and timeliness of BSAs, which are a core component of FPS's 
physical security mission. For example, in the recent past, one 
regional supervisor stated that while reviewing a BSA for an 
address he personally visited, he realized that the inspector 
completing the BSA had falsified the information because the 
inspector referred to a large building when the actual site was 
vacant.
    FPS has also experienced problems ensuring that security 
countermeasures, such as security cameras and Magnetometers, 
are operational. To address some of these operational 
challenges, FPS is currently changing to an inspector-based 
workforce which seeks to eliminate the police officer position 
and rely primarily on FPS inspectors for both law enforcement 
and physical security activities.
    Second, until recently, the security fees FPS charged to 10 
agencies have not been sufficient to cover its costs and the 
actions it has taken to address the shortfalls have led to 
adverse implications. Since transferring to DHS, DHS and FPS 
have addressed these projected shortfalls in a variety of ways. 
DHS has transferred emergency supplemental funding to FPS, and 
FPS has restricted hiring and traveling, limited training and 
overtime, and suspended employee performance awards. According 
to FPS officials, these measures have had a negative effect on 
staff morale and are partially responsible for FPS's overall 
attrition rates increasing from about 2 percent in fiscal year 
2004 to about 14 percent in fiscal year 2007.
    FPS also increased the basic security fee charged to tenant 
agencies from 35 cents per square foot in fiscal year 2005 to 
62 cents per square foot in fiscal year 2008. Because of these 
actions, fiscal year 2007 was the first year that FPS 
collections were sufficient to cover its costs. It also 
projects that collections will cover its costs in fiscal year 
2008.
    However, its primary means of funding its operations is the 
basic security fee, which is the same for Federal agencies 
regardless of the perceived risk or threat to a particular 
building or agency. Therefore, the fee does not account for the 
risk faced by particular buildings, and depending on that risk, 
it does not account for the level of service provided to tenant 
agencies or the cost of providing those services. For example, 
Level 1 facilities may face less risk because they are 
typically small, storefront properties with a low level of 
public contact. However, these facilities are charged the same 
basic security fee of 62 cents per square foot as a Level 4 
facility that has a high volume of public contact, may contain 
high-risk law enforcement and intelligence agencies, and have 
highly-sensitive government records.
    Finally, FPS is limited in its ability to assess the 
effectiveness of its efforts to protect GSA facilities. To 
determine how well it is accomplishing its mission to protect 
GSA facilities, FPS has identified some output measures, such 
as determining whether security countermeasures, such as 
cameras, have been deployed and are fully operational, the 
amount of time it takes to respond to an incident, and the 
percentage of BSAs completed on time. Output measures assess 
activities, not the results of these activities.
    However, FPS has not developed outcome measures to evaluate 
the results and the net effect of its operations to protect FPS 
facilities. Outcome measures are important because they can 
provide FPS with broader information on program results, such 
as the extent to which its decision to move to an inspector-
based workforce will enhance security. In addition, FPS does 
not have reliable data management systems that would allow it 
to accurately track and measure, or other important measures, 
such as the number of crimes and other incidents occurring at 
GSA facilities.
    In our report that we issued to this Subcommittee and other 
Congressional committees, we recommended, among other things, 
that the security of DHS direct FPS to develop and implement a 
strategic approach to better manage its staffing resources, to 
evaluate current and alternative funding mechanisms, and to 
develop appropriate measures to assess performance. We are 
happy to report that DHS agreed with all of these 
recommendations.
    This concludes my comments and I would be happy to answer 
any questions that you may have for us. Thank you.
    Senator Akaka. Thank you very much, Mr. Goldstein.
    Mr. Schenkel, as Mr. Goldstein just testified, FPS 
eliminated employee performance awards and restricted employee 
hiring, promotions, training, travel, and overtime to deal with 
its budget shortfall. As he also mentioned, one of the 
challenges is morale and he indicated that there has been harm 
to morale. I understand that some FPS workers were frustrated 
with the level of communication about FPS's budget and staffing 
and they wonder why the budget restrictions were not eased 
sooner when it became clear that FPS would not have a budget 
deficit in fiscal year 2007.
    What are you doing to improve morale in FPS, and in 
particular to address any gaps in communication with workers 
and with the union? Mr. Schenkel.
    Mr. Schenkel. Well, to begin with, I have given them an 
open and honest position of where we stood and where we need to 
go and how we need to get there. I visited nine of the 11 
regions, personally held town halls and spoke with the members, 
not only the police officers and inspectors, but also the 
mission support people. I think telling them the honest truth 
as to where we stood and where we need to go and what resources 
we have to get there, I think was the first starting point.
    Because we had such a, and I will use the word convoluted, 
way of doing business prior to the last several years, it was 
very opaque, the way things were conducted. I am not saying it 
is the wrong thing, right thing, incorrect way, and certainly 
not trying to throw another agency in the limelight. I am 
saying it was a very difficult system for us to sort out and I 
think we finally got our hands on that in 2006, 2007. As a 
consequence to that, we were able to provide performance wards 
for 2007. We were able to provide some individual spot awards 
for individual acts.
    In addition, we were finally able to provide a uniform 
allowance to get all of our officers in the same uniform. 
Although it was minimal, we have actually been able to increase 
that towards the end of this year.
    In regards to the union, I have reached out to President 
Wright. I think we have a very good relationship. I will let 
him answer that on his behalf, however. I came from a very 
large police department that had very large union participation 
and I brought that kind of mindset with me, is that nobody 
knows better about Beat 2212 than the beat officer on 2212, and 
we need to listen to the people and I think that we are making 
some tremendous progress on some of our operational issues. We 
would obviously like to provide more financial support to them, 
but at this point, I think we are making progress in the right 
direction, sir.
    Senator Akaka. Thank you, Mr. Schenkel.
    Mr. Goldstein, I would like to hear any thoughts you have 
on how FPS could improve officer morale.
    Mr. Goldstein. When we did our review over the last year, 
we visited seven of the 11 regions of the Federal Protective 
Service and we talked to more than 160 officers, inspectors, 
regional administrators, and support staff out in the field, 
and we found that they were extremely discouraged. Morale was 
not in very good shape for a number of reasons. They didn't 
have effective equipment. Mr. Schenkel has talked about 
uniforms. Equipment they were missing included security 
cameras, radios that didn't work, a lot of equipment to handle 
Building Security Assessments. Special kinds of technical light 
meters and things that they needed to do some of those 
activities were not in working order or available. So equipment 
and uniforms and things like that are certainly one thing.
    But more broadly speaking, I think morale would be improved 
if the Federal Protective Service was able to put in place a 
system that most of the officers and inspectors felt would be 
effective in protecting Federal property. In our review, in our 
discussions with officers, many of them felt that the shift to 
proactive--that was going to eliminate proactive patrol in many 
places would not be an effective means of protecting property, 
which is the principal reason that they hold those jobs in 
trying to protect the people and the buildings themselves.
    So there is, I think to some extent, a large policy issue 
that FPS is going to have to work through with its union and 
with the officers to be able to achieve greater harmony.
    Senator Akaka. Mr. Schenkel, GAO's report states that FPS 
is no longer using its cost-cutting measures. What is FPS doing 
to address the training needs that were not met during the last 
couple of years?
    Mr. Schenkel. That has been a very big priority of us from 
when I first arrived and I found out the sad state of training, 
that the officers, when I would go on the visits to the 
regional offices, we were supposed to be the premier force when 
it comes to being building security assessors and identify risk 
and yet some of our officers hadn't been to any training for 
years. Consequently, we reinstated our ALERT training, which 
includes additional hours on physical security assessments and 
training and new innovations that we are going to use within 
that.
    In addition, as I think Mr. Goldstein mentioned, we have 
the RAMP Program coming online, which will give the individual 
inspector a defensible document, if you will, that belongs to 
the Federal Protective Service as opposed to the disparate 
systems that we are dependent upon now to try and gather. That 
should cut that workload down.
    In addition to that, in addition to the benefits that we 
will gain by having this defensible document, that should cut 
that workload down substantially, as well, and we have also 
revisited the curriculum at our Physical Security Training 
Program (PSTP), down at FLETC in Glynco, Georgia, added the 
COTOR training, as we had mentioned in the opening statement. 
We are making improvements, not just in the law enforcement 
side of training, but we are trying to also make those same 
kinds of improvements in our physical security assessment and 
physical security training programs.
    Senator Akaka. Well, I am happy to hear that training is a 
priority.
    Mr. Schenkel. Yes, sir.
    Senator Akaka. You have mentioned some of the training, but 
does FPS track employee training to ensure that employees get 
appropriate advanced and refresher training?
    Mr. Schenkel. We are now, sir. We have appointed Josh Vayer 
as our Training Coordinator at the headquarters level. We are 
standardizing the process and procedures for training 
throughout the regions. And we have also hired a new individual 
down at FLETC to represent FPS under the umbrella of ICE's 
Office of Training and Development who will also be our 
advocate at FLETC and also coordinate all of our follow-on and 
veteran training, our in-service training at that location. 
Plus we are going to move our follow-on post-UPTP, or 
individual official initial training, up to our Bryn Mawr 
facility, where we will have access from the headquarters level 
to also not only document and observe the training, but also 
interact with any of our new employees that we may be able to 
hire here in the next few years.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. Mr. Goldstein, how long have you been 
looking over the shoulder of the FPS?
    Mr. Goldstein. We started our review about a year ago, sir.
    Senator Voinovich. Did you have any previous experience 
with auditing the FPS?
    Mr. Goldstein. We have done several reviews over a number 
of years. We have looked at performance measures there. We have 
looked at the mega-centers. And we have included FPS in a 
broader review at the Department of Homeland Security that we 
did, looking at performance measures with respect to risk 
management and to criteria for establishing security.
    Senator Voinovich. Did you have a chance to look at any of 
the other past reports about the FPS and compare them to the 
conditions that are existing today?
    Mr. Goldstein. The reports we did in the past were slightly 
different in that we didn't look at the workforce in the 
regions and specifically the kinds of challenges that they 
faced operationally in the past, except for a little bit when 
we looked at the mega-center and performance measures. But many 
of the same kinds of issues--performance measures, criteria for 
risk mitigation, and threat assessment and the like--that we 
have seen in previous years certainly exist in the kind of 
challenges they face today and we do address them in this 
report, also.
    Senator Voinovich. Well, the question I have from a 
management point of view, after the report came back and cited 
FPS as a low priority within the Department of Homeland 
Security, and just based on your experience with management, do 
you think the decision to pull FPS from the General Service 
Administration over to Homeland Security was a wise decision?
    Mr. Goldstein. I would answer it in two ways, Senator. We 
are doing a two-part review for this Subcommittee, and in the 
second part of that, we are looking very specifically at that 
question, which is where is the best location for FPS.
    But I can tell you already, based on the interviews we have 
done in the field, that almost to a person that we discussed 
this issue with in the field, officers and inspectors and 
regional administrators, almost every one of them did not 
believe that it belonged--that FPS did not belong in ICE. Many 
said it belonged perhaps in Infrastructure Protection or as a 
stand-alone unit in DHS, and some thought perhaps that it 
belonged back at GSA. But one of the things we will look at 
over the next couple of months is exactly where it might be 
best housed.
    Senator Voinovich. Mr. Schenkel, this is probably a tough 
question for you to answer because you haven't been on board 
that long, but you have had extensive management experience in 
the Marine Corps and then you had a very important position 
with the Chicago Police Department. It is going to be very 
difficult for you to answer this, but from an objective point 
of view, if you looked at where FPS is today, do you think it 
would be better to place FPS back with the General Service 
Administration?
    Mr. Schenkel. I think that any time that you put a manager 
in a position where he or she is faced with the choice of 
buying cleaning supplies or security guards, that puts that 
individual in a very difficult position. I think that is--I 
call it the Max Arrow approach. That is the screeners that used 
to be at airports around the country many years ago, even 
prior--far prior to September 11, 2001. It is a very cut-throat 
business. There is very low profit margin in that kind of 
business. And my concern would be that if it came down to 
price, we would go to the lowest bidder as opposed to the 
better standard of quality.
    Senator Voinovich. But up until now, that hasn't been the 
case. It seems that FPS has been given the back of the hand, 
and one could argue that in terms of the attention given, FPS 
has not been as much of a priority as it should be. If you go 
to Chicago they are putting a lot more money into security than 
they did prior to September 11, 2001 and building security is 
given a higher priority, particularly if they do any kind of a 
threat assessment as to their location.
    So your answer is you think it is better off where it is at 
right now?
    Mr. Schenkel. I think it is best away from the General 
Service Administration. I think that we are very dependent on 
ICE. ICE has been very helpful, especially on the financial end 
of it. We do not have those long trails and contracting support 
and experience that is necessary to support our contract guard 
program and our countermeasure program as a stand-alone entity. 
So regardless of where we were placed, if we are placed 
correctly or incorrectly in an agency within DHS, we still 
require that substantial financial support that we enjoy from 
ICE.
    Senator Voinovich. Would you agree that after FPS was 
transferred into the Department of Homeland Security, that 
somebody in DHS didn't realize its importance and didn't give 
it the priority that it deserved?
    Mr. Schenkel. I can't answer that one, sir, because I don't 
sit in those chairs. I don't have access to the information 
that other people have. I think we have been treated very 
fairly since I have been here and they have been extremely 
supportive. We would not have been able to pay those 2,200 
invoices last July. We would not have been able to consolidate 
our financial system, which continually detracted from our 
mission, were it not for ICE's support.
    Senator Voinovich. OK. And Mr. Goldstein, do you agree with 
that? The impression that I got was it came over to the 
Department of Homeland Security and they had other priorities 
and FPS didn't get the kind of attention that it deserved for 
lack of understanding how important FPS was in terms of 
securing our buildings.
    Mr. Goldstein. I can't say specifically because we didn't 
look at that as a question, but I think it is important to note 
that one of the early problems that was faced was the loss of 
the subsidy from the Federal Buildings Fund, and I would 
suspect that the Department of Homeland Security didn't fully 
recognize the impact of the loss of that subsidy----
    Senator Voinovich. Well, the subsidy was if FPS, and 
therefore GSA, needed money to deal with a particular security 
concern, they could reach into the Federal building fund, and 
that made up for any shortfall.
    Mr. Goldstein. Well, for a number of years, from 2000 
through 2004, they received anywhere between $95 and $140 
million in order to help pay the bills at FPS, and I suspect 
they didn't quite recognize the impact that would have in 
losing those funds when they took over FPS and they didn't 
understand a number of the other ramifications. So I am not 
sure that it is a question that they didn't pay attention to it 
so much as that they didn't understand all of the implications 
of the agency that they were inheriting.
    Senator Voinovich. The last question I have, Senator Akaka, 
is to Mr. Schenkel. One of the things that I have been very 
pleased about since we forced the Department of Homeland 
Security is the communication that has gone back and forth 
between local police departments, the sheriffs, the FBI, and 
other security entities in the community. But according to this 
report, that relationship hasn't been built up between the FPS 
and local law enforcement agencies. I would like to know, what 
have you done to try and remedy that situation?
    Mr. Schenkel. Well, first of all, I am a little surprised 
that the statement was even made because we have extremely good 
relationships with all of our local law enforcement agencies. 
We have got mutual supporting informal agreements existing all 
over the country. We have expertise and assets that most police 
departments don't have, that being bomb dogs, that being the 
expertise in physical security assessment and determining what 
countermeasures are appropriate. So on a frequent, if not 
daily, it is certainly a weekly basis, there is some region at 
some point doing some interaction with local law enforcement, 
and----
    Senator Voinovich. You are telling me that the FPS 
employees in Ohio are sitting at the table with the other law 
enforcement agencies today to exchange information and so 
forth? Is that what you are telling me?
    Mr. Schenkel. I can't say that they are with every law 
enforcement agency, but I can----
    Senator Voinovich. How many of them? Have you ever done an 
inventory of a State to find out how many of them actually are 
communicating with each other? And the other issue is, are they 
communicating with the private outfit that has been hired or 
are they communicating with the FPS people that are in between 
the law enforcement agencies and the private sector people?
    Mr. Schenkel. They are supposed to be communicating with 
the FPS, the district commanders, area commanders, if not 
regional directors.
    Senator Voinovich. Well, I would sure like to get an answer 
to that.
    Mr. Schenkel. All right, sir.
    Senator Voinovich. I would appreciate finding out just what 
kind of relationship there is between the FPS in Ohio and our 
local law enforcement officers and whether any of them are 
sitting in on those task forces that we have currently around 
the State.
    Mr. Schenkel. Yes, sir.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Mr. Schenkel, I believe that mentoring programs are 
critical in integrating new employees into an organization and 
building their skills. Mentoring might be particularly useful 
in FPS because there may be skill gaps from the high attrition 
and the recent restrictions on training. Does FPS have a 
mentoring program or any plan to establish one?
    Mr. Schenkel. Yes, sir. The FTEP, or Field Training--I want 
to call it the Field Training Officer Program, but we changed 
it to FTEP, and forgive me, I can't remember what the ``E'' is 
for, but it is a field training officer program to indoctrinate 
and inculcate new inspectors into the service. The initial 
documents were put together. The plan is on the table and being 
reviewed by employee and labor relations. We had input from 
individuals from the union up in Region 10, and then it will 
get a final brush from Local 918 before we enact it. It is 
based on the San Jose FTO Program.
    Senator Akaka. Mr. Schenkel, GAO's report detailed broken 
security cameras, X-ray machines, radios, and other important 
equipment. You testified that you have a national maintenance 
contract in place in order to ensure timely repair and 
replacement of security equipment. Can you tell us more about 
that process and the time line for getting it done?
    Mr. Schenkel. Yes, sir. The National Countermeasures 
Program was a priority when I first got here, when I found out 
that we bought equipment as opposed to leased equipment, 
because I knew that much of this was 1960s technology. I did a 
short stint with the TSA and had some experience with the X-ray 
machines and walk-through metal detectors, etc. So I asked some 
of the folks to reach out to TSA and to some of the other 
agencies that were frequent users of these kinds of equipment.
    As I mentioned before, it was a somewhat challenging way of 
doing business in the past years, and subsequently we have 
found out that there is a tremendous ownership question in 
regards to many of these security measures, in particular 
cameras, X-ray machines, and walk-through metal detectors. So 
when we conducted our inventory to find out how bad a situation 
this was, we found out that there were three different owners, 
if you will. In some cases, the equipment was claimed to be 
owned by GSA. In some instances, in particular around 
courthouses, the equipment was claimed to be owned by the 
Marshals Service. And in other instances, it was Federal 
Protective Service.
    So about 60 days ago, we were near the end of our inventory 
and what I told them is if there is any question, FPS will take 
responsibility for this. The National Countermeasures Program 
will be in place in October 2008. This will include a National 
Countermeasures Maintenance Program to where there will not be 
an individual company that would have to be called to maintain 
this equipment. We will have one contract nationwide, and as I 
said, this will begin in October 2008. In addition, we will be 
replacing the first third of the equipment that is long past 
its usefulness, as well.
    Senator Akaka. I would like to hear both of your thoughts 
on this issue. As FPS's response to the GAO report indicates, 
the building security fee structure was created to provide 
basic protection to Federal buildings as real estate assets. 
Since that time, it has become all too clear that terrorism is 
a real threat and Federal buildings may be attractive targets 
to those who would do us harm. Failure to account for the 
increased risks that Federal buildings face has led to 
insufficient investment in Federal building security. As you 
know, FPS currently is entirely fee funded. Should Congress 
appropriate money to cover some of FPS's basic costs? Mr. 
Schenkel.
    Mr. Schenkel. I have discussed this recently with OMB and 
with other Congressional and Senatorial staffers as well as 
ICE, and we think that there is certainly a good argument for a 
baseline appropriation. Right now, we charge it at 62 cents, to 
go to 66 cents next year for a basic security fee, with the 
expectation of our customers to all who receive that same basic 
service. That same basic service right now is the same at 26 
Federal plazas as it is in Bangor, Maine, for a book 
repository, which is unrealistic with a force of only 1,200 
people.
    I think once it is determined what that basic security fee 
should pay for, in other words, if right now we are required to 
provide the basic security assessment, assist with occupant 
emergency plans, investigate all threats against individuals 
inside of our buildings and investigate all threats against our 
buildings, etc., and have proactive patrol and law enforcement 
response. That is a big order for 1,221 people.
    I think if it is determined that basic security fee would 
provide only portions of that or if there was something over 
and above that was required due to specific threats or a 
higher-risk building or a higher-risk area, that would have to 
be a separate cost. So if there was a baseline that would be 
provided not only as an appropriation but for that 
appropriation every customer would have that same expectation 
that we could meet, I think that would be a starting point, 
sir.
    Senator Akaka. Mr. Goldstein, what are your thoughts about 
this?
    Mr. Goldstein. We recommended in our report that FPS 
evaluate whether a fee-based structure or some alternative is 
the most appropriate way to support the Federal Protective 
Service. We are not against a fee-based structure. There are 
many fee-based structures in the Federal Government that 
support agencies. But this is one that isn't fully effective at 
this point in time for the reasons that both Mr. Schenkel and 
myself have mentioned in terms of the equitability of the 
costs, the spreading out of risk across all the patrons, and 
regardless of where you are, you pay the same fee.
    One of the issues that FPS has to address, as well, with 
respect to its charges is whether it has an effective cost 
accounting system that can account for the costs of providing 
security to its tenants, and we believed and made a 
recommendation that they need to improve their cost accounting 
and FPS has agreed to do that, as well.
    So while we are not in a position to say that you should 
absolutely go to an appropriations approach, we do believe that 
further evaluation of the fee-based structure and an 
appropriations structure is clearly necessary and that is what 
FPS has agreed to do.
    Senator Akaka. Mr. Schenkel, FPS's attrition rate increased 
dramatically in recent years. Now that FPS is hiring again, 
rather than downsizing, and does not face a budget deficit, is 
the attrition rate improving?
    Mr. Schenkel. The attrition rate thus far this year is 6 
percent, as opposed to last year it was 14 percent at this same 
time. We are able to attract some other Federal law enforcement 
officers because of our ability to increase their grade.
    Senator Akaka. As you know, the Fiscal Year 2008 Omnibus 
Appropriations Act requires FPS to have 1,200 employees by July 
31, 2008. Your testimony states that FPS has 1,051 employees, 
which is about 50 fewer people than you had at the beginning of 
the fiscal year, and you plan to be close to 1,200 by September 
30, 2008. What is the cause of the delay? When did you start 
hiring, and are you having a hard time attracting qualified 
candidates?
    Mr. Schenkel. The delay was evidently instituted by 
Secretary Chertoff sending a letter requesting that he be given 
the authority to wait until September 30. The ability to 
attract, as I just previously mentioned, we started recruiting 
in the March-April time frame.
    We have been very fortunate because we targeted a very 
lucrative audience, if you will, that being the veterans, many 
of them coming back from the Gulf, or from the Middle East, 
looking for work in security and having experience. Because we 
have gone to that LESO-based force, we are able to attract 
folks that would perhaps be going to a regular police 
department that also would have had some challenges attracting 
people. But because of our ability to increase their grade, 
provide them equipment now, quality equipment, we are able to 
attract a great number. As a matter of fact, we have got 800-
and-some--835, I believe--on our certification list.
    I would be lying to you if I told you it wasn't a painful 
process, getting them through the process of hiring, the 
Federal hiring, most of which is out of our control. But we are 
pushing them very hard. We have got plenty of folks that want 
to go to work for us. It is just difficult getting them through 
the funnel.
    Senator Akaka. Senator Voinovich.
    Senator Voinovich. We keep harping on the fact that since 
FPS staff has decreased by about 20 percent with further 
reductions expected until Congress mandated a minimum number of 
FPS employees. I keep thinking that FPS wasn't given the 
attention it needed and it is unfortunate that Congress had to 
step in to indicate that.
    How many FPS employees and how many contract employees do 
you believe are needed to meet the FPS mission? Not just the 
number of contract employees, but how about FPS employees? And 
do you agree with staffing recommendations contained in the 
2006 workforce assessment? In terms of succession planning, do 
you agree that 1,200 is the right number to get the job done or 
is it more than that or less than that?
    Mr. Schenkel. I think 1,200 is a good baseline to start 
with. One of the things that our customers have asked for and 
what we kind of term as a FPS-light situation is having 
inspectors available who are stationed in nearly every Level 4 
building or Level 4 complex of buildings. That would be 
slightly higher than the 1,200 number that would be required, 
but then again that would have to roll back to determine what 
would be expected on that basic security fee. An increase--a 
substantial increase--would be required to support the kind of 
language that is in the FPS-GSA Memorandum of Agreement right 
now. But 1,200 is a good starting point, and to get to that 
frequent visibility and presence in Level 4 buildings would 
require several hundred more.
    Senator Voinovich. Do you have a current strategic human 
capital plan?
    Mr. Schenkel. We do, sir, and we are depending on several 
of those systems that are coming online this year, in principal 
the RAMP system and the Computer Aided Dispatch. We have made 
the improvements to our daily operations log at our mega-
centers, which does our dispatching and accounts for our 
personnel and location that GAO recommended back in 2004. I 
think once we are able to actually capture that data, as Mr. 
Goldstein mentioned, I think we will be able to provide you 
some very accurate numbers as to what the appropriate number to 
support the kinds of expectations that are necessary.
    Senator Voinovich. You underscored the difficulty in 
getting people through the system. One of the things that 
Senator Akaka and I are trying to do is get rid of some of the 
clogs in the system so that we can bring people into the 
Federal Government. Would you like to share with us your 
frustrations and why is it you are having such a tough time 
hiring individuals to FPS?
    Mr. Schenkel. We are able to attract people. Our HR systems 
are very good. But as so many agencies, we are dependent on 
outside, or other agencies to process beyond the job--even to 
make it a job announcement, I am sorry. As a result, we are 
just another group inside another group of priorities and 
everybody has got a priority. It gets bogged down primarily at 
the medical side on the medical evaluations, anything that we 
can do to expedite that piece. We are getting fairly good at 
the background investigations because we do a lot of our 
background investigation. We do them all for GSA and for our 
people and for all our security guards, so we are able to 
assist in that. But it is beyond the offer stage that it 
becomes excruciatingly painful.
    Senator Voinovich. So it is medical. How about security 
clearances?
    Mr. Schenkel. Security clearances, we are doing fairly well 
in. Again, that is probably because we own a piece of that, so 
we are able to control it and expedite it when necessary.
    Senator Voinovich. To issue a posting of FPS jobs, you have 
got to do that through OPM?
    Mr. Schenkel. No, sir, we go through CBP on that, sir.
    Senator Voinovich. OK. So it is posted. Then you have your 
applicants. Then you review them and then you do the 
investigation and the health part of this?
    Mr. Schenkel. Correct. Once we review----
    Senator Voinovich. Who runs the health? Where do you have 
to send people? Where do they get the health thing?
    Mr. Schenkel. It is a contract, sir.
    Senator Voinovich. So you have contract people that do that 
work for you?
    Mr. Schenkel. Through Customs and Border Protection.
    Senator Voinovich. Can that part of the process be sped up 
a bit.
    Mr. Schenkel. It could probably use a little----
    Senator Voinovich. How long does it take you to get a 
security clearance?
    Mr. Schenkel. We have got it down to roughly--well, for our 
applicants, because they require a ``Secret'' clearance, it 
will take approximately 30 to 45 days.
    Senator Voinovich. Mr. Goldstein, performance metrics 
provide a clear picture of whether or not agencies are meeting 
their mission requirements and are being good stewards of the 
taxpayer dollars. FPS plans to implement the Data Management 
System to support performance management by 2011. It seems to 
me that 3 years is a long time to develop that system given the 
technology currently available. Are there actions you would 
recommend FPS to take to acquire this capability more quickly?
    Mr. Goldstein. There may be some off-the-shelf applications 
that they can use, some best practices from other agencies that 
they might review. I think FPS recognizes that it has an issue 
and it is taking some steps to remedy that situation. I do 
think it can take a couple of years.
    But I think if they were to take a look at other agencies 
that have effective practices in place to help understand how 
they can improve the kinds of outcome performance measures that 
they need to gauge the effectiveness of their mission, I think 
that would be very useful. There are many other Federal 
agencies and private sector organizations that are leaders in 
this field and they can probably learn from them in the 
meantime so that by the time they are ready to get their system 
fully underway, they will have some meaningful measures that 
they could deploy.
    Senator Voinovich. So they could probably look at some 
other areas in order to speed this up a bit?
    Mr. Goldstein. Yes, sir. I think so.
    Senator Voinovich. Yes. Mr. Schenkel, you are a member of 
the Senior Executive Service?
    Mr. Schenkel. Yes, sir.
    Senator Voinovich. And you are not one of the political 
appointees over in the Department?
    Mr. Schenkel. No, sir.
    Senator Voinovich. How difficult was it for you to come 
into the position that you are in?
    Mr. Schenkel. To be hired or just take on the 
responsibility?
    Senator Voinovich. Well, one of the problems that we 
noticed is it is very difficult to get people to come into the 
Federal Government. If you look at the number of people that 
are coming in at the level you came in, there aren't that many 
of them.
    Mr. Schenkel. I applied September 9, 2006, and was hired 
April 1, 2007.
    Senator Voinovich. Repeat that again.
    Mr. Schenkel. I applied September 2006 and was hired April 
1, 2007.
    Senator Voinovich. It took a while.
    Mr. Schenkel. Yes, sir.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you, Senator Voinovich.
    Mr. Schenkel, you testified that moving to an inspector-
based workforce, eliminating the FPS police officer position 
but expecting inspectors to do building patrol and other law 
enforcement functions is useful because inspectors were 
stretched too thin when they were 55 percent of the FPS 
workforce. Now, they are 80 percent of the smaller FPS 
workforce. If inspectors were stretched too thin to do 
accurate, complete, and timely building assessments, why were 
you moving forward with further reducing FPS staff? If you had 
more employees, would you need them to cover such a broad range 
of tasks?
    Mr. Schenkel. I believe so, sir, because of our small 
numbers. We are expected to do a great number of different 
kinds of activities. Having an inspector or a LESO law 
enforcement security officer, I have a certified police 
officer. I have a sworn officer, gun-toting, badge-wearing 
individual that can also concentrate on his or her core 
competency and the expectation from our customer agencies.
    We are in the protection business as well as in the law 
enforcement business. By having an inspector-based or a Law 
Enforcement Security Officer-based force, it gives me complete 
flexibility to move those people around to where the threat is 
the greatest or when the risk changes. If I only have half of 
my force available to do that, I am going to end up in the 
exact same situation Mr. Goldstein described in his report. The 
9 of 10, if you will, or certainly 90 percent of the comments 
made by the GAO all circled around our inability to provide the 
protection mission, and the 1 percent or the one piece was a 
proactive patrol. I can take an inspector or a Law Enforcement 
Security Officer and put him or her on patrol. I cannot take a 
police officer and assign him or her a Building Security 
Assessment.
    Senator Akaka. Mr. Goldstein, do you have any thoughts on 
whether the problem of inspectors being stretched too thin 
reflects a need to move to an inspector-based model rather than 
a need to hire more inspectors?
    Mr. Goldstein. We did hear many concerns, Mr. Chairman, 
from inspectors in the field that they were sort of overworked 
and overwhelmed by their job responsibilities and police 
officers were very concerned that inspectors would not be 
responding in a timely way when there were law enforcement 
situations because of the other responsibilities that they had. 
Inspectors are responsible for the oversight of contract 
guards, for Building Security Assessments, for contracting 
officer technical representation duties, for law enforcement 
response, criminal investigations, collecting contract guard 
time cards, and they also run the Building Security Committees, 
which is the organization of tenants in each building that 
represent security needs and interface with FPS.
    So that is quite a lot of responsibilities and many of the 
people we talked to felt that not only that were they 
overwhelmed by those responsibilities, but there might not 
always be a timely response, and there were several examples 
that were provided to us where inspectors did not respond in a 
timely way when they were called by police officers for 
assistance.
    Senator Akaka. If FPS converts its police officers to 
inspectors, is there a danger that the agency will lose some 
specialization and focus on its law enforcement functions? Mr. 
Schenkel.
    Mr. Schenkel. I don't believe so, because I think by having 
that 100 percent flexibility, it gives the regional directors, 
the district commanders, the autonomy and the authority to 
address the risks as they change. If we concentrate on 
absolutely just one thing, we can only protect so many 
buildings from being hit by airplanes. The threat could change 
literally tomorrow, and it does. Whatever kind of threat there 
is that we are able to provide an adequate countermeasure for, 
the enemy, if you will, will always find some low-tech means of 
countering that. I think we have to remain flexible and I think 
that by proper management and leadership down at the district 
and area level, we don't lose that law enforcement expertise 
any more than we would lose our physical security or our 
protection mission abilities.
    Senator Akaka. Mr. Goldstein, do you have any thoughts on 
that?
    Mr. Goldstein. I think when we did our review, we looked at 
this as sort of a three-legged stool. You have the protection 
provided by the FPS itself in terms of its people, its 
inspectors and its police officers. You have the 
countermeasures of Magnetometers and X-ray machines and cameras 
and the like. And then you have the local police forces that 
can respond if and when they have a good working relationship 
with FPS. And it seems to me that you need all three of these 
for effective security of Federal property and that currently 
there are certainly challenges that FPS faces in providing 
effective protection in all three of these areas. And so I 
think the view is that you need to be able to assure that you 
can work effectively in providing security through all three of 
these components.
    I do agree that flexibility for an inspector would be 
useful, provided that there are sufficient resources in terms 
of the inspector workforce as well as to ensure that having 
enough of them would allow for some level of proactive patrol 
that has been demonstrated to be an effective countermeasure to 
surveillance and other kinds of criminal activities.
    Senator Akaka. Mr. Schenkel, I understand that FPS night 
coverage was reduced as staffing declined. Most major cities do 
not have a single FPS employee on duty throughout the night. 
How many cities currently have a FPS employee on duty during 
night hours, and do you plan to expand overnight coverage?
    Mr. Schenkel. I am going to have to get back with you on 
the first question, but on the second question, I can answer 
yes, most definitely, we intend to return to our 24-hour 
patrols wherever they were before based on risk. The situations 
may have changed and may have shifted to other locations, but 
will return to the 24-hour patrol.
    Senator Akaka. Any questions, Senator Voinovich?
    Senator Voinovich. Mr. Chairman, I think that we have a 
vote at 3:30 and I have other questions, but I think we ought 
to get Mr. Wright on so we can hear his testimony.
    Senator Akaka. Thank you very much.
    I want to thank the first panel for your testimony. They 
will certainly help us with what we are trying to do. Thank 
you.
    Mr. Schenkel. Thank you.
    Mr. Goldstein. Thank you.
    Senator Akaka. At this time, I would like to welcome to the 
Subcommittee David Wright, President of the American Federation 
of Government Employees Local 918, which represents Federal 
Protective Service employees.
    As you know, it is the custom of this Subcommittee to swear 
all witnesses, so please stand and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Wright. I do.
    Senator Akaka. Thank you very much. Let the record note 
that the response was in the affirmative.
    I want you to know that while your oral statement is 
limited to 5 minutes, your entire written statement will be 
included in the record. Will you please begin with your 
statement?

TESTIMONY OF DAVID WRIGHT,\1\ PRESIDENT, AMERICAN FEDERATION OF 
   GOVERNMENT EMPLOYEES LOCAL 918, FEDERAL PROTECTIVE SERVICE

    Mr. Wright. Yes, sir. Chairman Akaka and Ranking Member 
Voinovich, my name is David Wright and I am President of AFGE 
Local 918, the Federal Protective Service Union. I have been a 
FPS law enforcement officer for the past 22 years, to include 
time in management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wright appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    In the 7 years since the September 11, 2001 attacks, I have 
watched with growing frustration and outrage amongst my fellow 
workers as the Federal Protective Service has been allowed to 
deteriorate and drift like a rudderless sinking ship. Mr. 
Chairman, every American should be shocked and frightened by 
the GAO testimony we heard here today. The sole Federal agency 
charged with the critical mission of protecting thousands of 
Federal buildings and millions of people from terrorist and 
criminal attack has had its core mission challenged, its 
funding cut by $700 million since September 11, 2001, its 
employee pay reduced by 10 percent, and its law enforcement 
ranks nearly depleted.
    If one of our local unions had performed in such a manner 
with respect to carrying out its mission and responsibilities, 
it would have been put into trusteeship. It is clear to us that 
we need Congress to act as a trustee for the Federal Protective 
Service.
    It has only been through the intervention of this and other 
committees of Congress that we have stopped this dangerous and 
irresponsible trend. Meanwhile, in fiscal year 2008, FPS is 
projected to have 1,200 personnel with a budget of 
approximately $238 million nationwide for operational purposes 
while there are over 1,600 Capitol Police budgeted at $281 
million to protect the Capitol and Congressional offices in a 
12-block area of Washington, DC. The Secret Service has over 
1,300 officers in its Uniformed Division to protect its 
assigned facilities in Washington, DC. The Veterans Health 
Administration has over 2,500 police officers to protect their 
154 medical centers nationwide. I should also add that all 
these agencies use extensive proactive patrol by police 
officers to detect and deter attack, the very critical 
activities that GAO found missing in FPS.
    The questions we need to answer today are, why was this 
allowed to happen to FPS and what needs to be done? My written 
testimony answers both of these questions in detail and I 
appreciate them being placed in the record.
    I want to make four key points here this afternoon. 
Regardless of why this agency has been allowed to ``twist in 
the wind,'' as the Senate DHS appropriations report put it last 
year, we need to continue to rapidly rebuild the FPS. A 
comprehensive review and assessment of manpower needs and 
requests for sufficient personnel to perform the mission must 
be produced by the agency as quickly as possible and as 
recommended by GAO. In the interim, Local 918 is asking 
Congress to increase the current level of 1,200 personnel by 
about 400 in the fiscal year 2009 appropriations bill.
    Two, the GAO pointed to the importance of the uniformed 
Federal law enforcement presence surrounding Federal buildings 
as an essential security requirement to detect and deter 
attack. It is an approach embraced by all law enforcement 
agencies across the country, yet this is precisely the 
component of FPS activity that DHS and ICE have worked so hard 
to eliminate. The union believes that eliminating police 
officers and maintaining a depleted all-inspector workforce is 
a dangerous mistake. While inspectors can and do perform law 
enforcement jobs, they also have a very different set of 
responsibilities on a day-to-day basis--overseeing the contract 
guard workforce, performing Building Security Assessments, to 
name several. In the performance of these duties, it is less 
likely inspectors will uncover criminal or terrorist activity.
    Three, in the post-September 11, 2001 world of today, it 
makes virtually no sense to rely upon a square footage-based 
fee to entirely determine funding for the FPS. While the union 
does not oppose the continued funding of some optional FPS 
services through this mechanism, we strongly believe that most 
activities, to include operations of FPS, can and should be 
funded through annual appropriations. I want to make it very 
clear, the current funding formula is one of the two root 
causes of the problems here at FPS and it is in desperate need 
of reform.
    Four, just within the past 2 years, FPS police officers and 
other law enforcement officers have seen their pay cut by 10 
percent. Many have been told their jobs were being eliminated 
and we have watched as the agency's core mission has been 
threatened by a misguided attempt of non-law enforcement 
bureaucrats to eliminate critical FPS law enforcement 
activities. I can tell you, we have lost many talented, 
experienced officers as a result. As you can imagine, morale is 
in the tank. Your FPS Federal law enforcement officers have 
borne the brunt of recent FPS budget reductions. We need 
Congress to step in. Restoration of retention pay and provision 
of law enforcement retirement benefits are two changes that 
should be implemented as part of any FPS rebuilding process.
    Mr. Chairman, I believe the state of FPS right now is a 
little different from that of the airline industry security 
prior to September 11, 2001. There, a reliance on poorly-
trained, unmonitored contract guards with no law enforcement 
authority, security implementation by conflicting entities, an 
unworkable funding structure, and a perception of security 
through inspections instead of protection by boots on the 
ground Federal officers proved disastrous. It should not have 
happened then and it should not be allowed to happen now.
    I am available for your questions.
    Senator Akaka. Thank you very much, Mr. Wright.
    FPS's spending restrictions harmed employees' morale over 
the last couple of years. Repairing that damage will take time. 
Do you have any thoughts on what FPS needs to do to improve 
morale within the agency? You mentioned the word ``reform''. If 
you can be specific on what you mean by reform and on your 
thoughts specifically on improving the morale within the 
agency?
    Mr. Wright. Correct. I would like to reiterate that I have 
been with FPS for 22 years. We have always had our problems, 
and in my opinion, we have always been treated as second-class 
citizens. That just became magnified as we came into ICE.
    As far as reform, there is a culture in FPS. We have 11 
different regions. I like to call them 11 different kingdoms. I 
know that headquarters does their best to pass the word on and 
unify the regions with uniform processes, but this doesn't 
happen. Improving morale--we have always been the boots on the 
ground. We have always been the first responders. Yet we do not 
have law enforcement coverage. We do not have the benefits 
afforded other Federal law enforcement officers. That would be 
a great start.
    Senator Akaka. The GAO report contained some troubling 
accounts of poor work on Building Security Assessments, 
including copying and pasting information from old BSAs into 
new ones. Workers often get the blame for these types of 
problems, but they may be a symptom of inadequate staffing or 
training. Are the FPS inspectors you represent being pressured 
to conduct BSAs too quickly, and are they receiving all of the 
training they need?
    Mr. Wright. It has been my experience that training is 
nonexistent after the physical security training program, or 
Physical Security Academy, as we call it. There is tremendous 
pressure to conduct these assessments. It is seen as our bread 
and butter. It is seen as the major service that we provide, at 
least in the eyes of the agency.
    What is happening here this year is a good indication. We 
have a 12-year, or a 12-month cycle. It has effectively been 
reduced to 6 or 9 months for inspectors across the Nation. I 
can tell you that here in a major municipality on the East 
Coast, I was speaking to an individual, myself and an officer 
having lunch together. He was one individual responsible for a 
patrol zone, a very large patrol zone where he had to travel 
about 45 miles between calls for service. He was the only 
individual on duty and the inspectors were tucked away in a 
room conducting their assessments. So these timeliness issues 
of assessments, unfortunately corners get cut, tremendous 
pressure by first-level management to get these things done.
    Senator Akaka. Mr. Wright, you recommend that FPS officers 
be granted the enhanced pension benefits that other Federal law 
enforcement officers receive. Could you tell us more why you 
believe FPS officers deserve these benefits and how the 
benefits might affect recruiting and morale?
    Mr. Wright. As we all know, these benefits are commonly 
referred to as 6c/12d, early retirement age, more benefits. 
Most police agencies out there at this point, CBP, Border 
Patrol, and ICE, are actively hiring. DRO is actively hiring. 
We are competing for these officers and when they look at FPS 
and they see that the benefits are not there that they can 
obtain in other agencies, then they are likely to go elsewhere.
    As far as deserving, we are the boots on the ground. We are 
the first ones on the scene. I think that has always been a 
fault in the law that first responders are basically not 
included in law enforcement benefits. The history shows that 
those benefits were aimed towards investigators and have since 
been tweaked to include detention, transportation of criminals, 
and protection of Federal officials, whereby the first 
responder does not receive those benefits.
    Senator Akaka. Senator Voinovich.
    Senator Voinovich. You were here to hear the questions that 
I asked the other two witnesses and one of the major questions 
I asked was looking at this from an objective perspective, and 
based on cutting the budget and a few other things, and now you 
are talking about comparable fringe benefits, do you think we 
would be better off taking the FPS and bringing it back under 
the General Service Administration?
    Mr. Wright. No. General Service Administration was a 
different situation. I look at it as GSA is the government's 
landlord. I look at it as being in an agency dealing with real 
estate, realty professionals managing a law enforcement force, 
in effect, tantamount to having a mayor or someone being over a 
police force. There is not enough separation there. A separate 
division within GSA may be possible. We would have to be pretty 
much a sovereign entity within GSA if that happened.
    Senator Voinovich. Looking at it from a management point of 
view, if I have responsibility for the oversight of the 
building and other additional responsibilities, I believe one 
of the most important ones is security. So, you are saying that 
when GSA had FPS, you don't think GSA gave enough attention to 
the security aspect of this?
    Mr. Wright. That is my opinion.
    Senator Voinovich. So you think you are better off where 
you are at?
    Mr. Wright. It is a really tough spot, two different 
circumstances. The placement within ICE is--it is a terrible 
fit. I am not sure what the solution is.
    Senator Voinovich. Well, I would be interested in what you 
think the solution is.
    Mr. Wright. Personally, I think the solution is a stand-
alone agency within DHS. We have responsibility for 9,000 
properties, millions of employees and visitors on a yearly 
basis. We have our authority issues. We have jurisdiction 
issues. And I think the placement of FPS going into ICE and 
being placed in a turf battle of Immigration versus Customs and 
we are low guy on the totem pole, that is a problem.
    Senator Voinovich. Yes, and that----
    Mr. Wright. My opinion----
    Senator Voinovich. Is that the reason why you think you 
have gotten the back of the hand or short shrift, because in 
terms of priorities, they don't think that what you are doing 
is as important as some of the other responsibilities?
    Mr. Wright. Absolutely. The fee funding structure and the 
lack of respect for the FPS mission are the cause of our 
problems today.
    Senator Voinovich. Based on your observations, following up 
on the question that I asked the other witness, Mr. Schenkel, 
what is your evaluation of the relationship between the FPS and 
local law enforcement agents around the country, and to your 
knowledge, do you participate in these task forces that we have 
throughout the country where we get the various law enforcement 
agencies together to talk about sharing of information and so 
forth? Are there strategic plans in place, for example, if 
something would happen at one of your buildings to bring in the 
local law enforcement agencies to enhance your ability to deal 
with some of these things?
    Mr. Wright. I can speak for Kansas City, Missouri, where I 
spent the majority of my career. We have an informal 
relationship with Kansas City PD. As far as the strategic plan, 
no. We know who to call. We ask them to assist and they 
generally assist. But as far as a plan, no. My experience 
from--coming from my counterparts across the Nation is there is 
a lack of reciprocity, that local police departments will 
respond to our situations, but when it comes to us assisting 
the locals, say we have a canine bomb detection team and they 
could use that team for a couple of hours, these local 
departments are turned down.
    Senator Voinovich. They are turned down from using the 
equipment that you have to enhance the job that you are doing?
    Mr. Wright. Yes.
    Senator Voinovich. Wow. Why are they doing that?
    Mr. Wright. We have a management structure that is stuck in 
the 1970s. They all believe that FPS does not have the 
authority to assist other agencies, say, for example, a bomb 
threat call to a school. I mean, that is the main 
consideration. That is not GSA property. You can't go. You 
cannot assist. We have had instances in Kansas City where the 
police department has requested our presence at major functions 
and without that agency compensating FPS, we do not respond. So 
it is a reciprocity thing.
    Senator Voinovich. Well, here is the question I asked Mr. 
Schenkel. I want a report back about the number of task force 
relationships there and the strategic plans in place in the 
event that would happen.
    Mr. Wright. Right.
    Senator Voinovich. I am going to be real selfish about it. 
I want you to start in Cleveland, Ohio.
    Mr. Wright. OK.
    Senator Voinovich. I was mayor in the State of Ohio, and I 
was governor, and I want to know what is really going on in my 
home town and where we have our Cleveland offices in that 
Celebrezze Building. We will use that kind of as a model to 
find out just where we are at.
    Is one of the things that we had hoped would happen when 
the Department of Homeland Security was created was that we 
were going to try and compare the various responsibilities that 
law enforcement had. Within Homeland Security, you have FPS and 
a lot of other groups. Has any effort, to your knowledge, been 
made to look at the respective responsibilities that various 
law enforcement personnel have and fringe benefits that accrue 
so you don't end up having people shopping from one agency to 
another?
    Mr. Wright. No. I don't know of any such study.
    Senator Voinovich. Well, Mr. Chairman, for the record, I 
would like to have that question answered because from what I 
understand, your fringe benefits are different than some of the 
other Federal law enforcement entities. And your folks feel 
like you are maybe second-class citizens within ICE.
    Mr. Wright. Right. CBP just got 6c law enforcement 
coverage. ICE and DRO get law enforcement coverage. We are law 
enforcement officers in one agency and we are being treated 
disparately.
    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Akaka. Thank you, Senator Voinovich.
    Following up on the Senator's request, I would like to ask 
that you respond to that, if you can do that in writing, as 
well.
    Mr. Wright. OK.
    Senator Akaka. Mr. Wright, as you know, contract security 
guards do not have arrest powers. They may detain people who 
are suspected of committing a crime, but according to the GAO, 
some do not because they fear liability. GAO reported numerous 
troubling incidents in which guards stood by as they witnessed 
security incidents. You have worked for many years for FPS and 
its predecessors. In your experience, how widespread is this 
problem?
    Mr. Wright. I have seen and heard of numerous incidents. I 
think just about every FPS law enforcement officer can tell you 
at one time or another about an incident in which contract 
guards have released individuals or failed to pursue 
individuals. The problems with contract security is, and I am 
not anti-free enterprise here, but they do work for a company, 
so they do have that added pressure of liability towards 
themselves and the company. They are also basically at will 
employees. An individual can be removed from a Federal security 
contract with no rights at all. So you have individuals that 
have these concerns and they are basically working a day-to-day 
job without a career.
    Senator Akaka. Mr. Wright, FPS inspectors oversee contract 
security guards, but they are not able to spend much time 
inside Federal buildings. Do contract security guards generally 
have a supervisor from the contracting company on site?
    Mr. Wright. Yes. When the agency pays for that supervisor, 
they can be provided on site, the proviso being that they are 
being paid for their hourly wage and contract cost. Otherwise, 
it has been my experience that at least the major companies 
that I have worked with have a roving supervisor that go from 
one property to another. But as far as a supervisor on post, 
yes, the FPS does pay a premium to have a contract supervisor 
on post.
    Senator Akaka. Mr. Wright, although contract security 
guards are not sworn law enforcement officers, many of them are 
armed. Is FPS able to ensure that contract security guards are 
well trained and vetted before coming on board? Have there been 
any security incidents that you know of involving contract 
security guards?
    Mr. Wright. I think the most notorious security incident 
was a theft of FPS weapons by a contract security guard, and 
consequently transported to another State for sale. I do know 
that they are vetted. I do know that we do background checks. 
But as I say, these are individuals. When they walk into these 
jobs, these are not really careers. These are day-to-day jobs 
in which they earn a good wage and things happen. I could 
research on more incidents. I just fail to recall any more at 
this point.
    Senator Akaka. Mr. Wright, as you know, very few cities 
have any FPS officers on duty at night and on weekends. Why is 
night and weekend coverage valuable, and how many cities should 
have it?
    Mr. Wright. Night and weekend coverage is valuable. These 
are the times that it is known that surveillance of properties 
take place by criminal or terrorist elements. No one is on duty 
to watch. Of course, we had the recent pipe bomb explosion at 
the San Diego Federal Courthouse. There were no FPS officers on 
duty at that time. That may have been averted by just the 
patrol or the surveillance. We will probably never know.
    I know of two major cities that have 24/7 patrol, and even 
at that, it is very minimal at this point. As far as the number 
of cities, I have seen several different breakdowns. I think 
the union recognizes a cut-off of about 22 major cities that 
need 24/7 coverage.
    Senator Akaka. As you know, FPS plans to move to an 
inspector-based workforce, eliminating the police officer 
position but expecting inspectors to do more law enforcement 
functions. Could this model work if FPS was staffed at the 
level that inspectors had adequate time for their traditional 
duties as well as for law enforcement functions, or is there a 
danger of losing focus on law enforcement activities regardless 
of the staffing level?
    Mr. Wright. For an all-inspector workforce to work, I think 
the given average now is an inspector could probably work 20 
percent of his time on law enforcement patrol and response. At 
least that is the agency's stance. I don't agree with that. I 
know that I can spend my 40 hours in a week on physical 
security duties. It would be a matter of process. It would be a 
matter of procedures, getting all the regions online, mandating 
inspectors to go on patrol at certain times, maybe a semi-
yearly basis changing duties. It is tough to be sitting there 
conducting physical security duties and then have your call for 
service and respond in that mindset. It is not a good mix.
    The original intent of the inspector was you had your 
police force that provided primary law enforcement patrol and 
response. They were out there 40 hours a week. You have your 
inspectors that are conducting assessments, conducting physical 
security, protecting the properties by implementing 
countermeasures and procedures, and then be available when that 
unexpected demonstration hits, or to be available when that 
bomb threat comes out.
    I would be much more satisfied with a large number of 
police officers conducting their patrol. I would be much more 
comfortable with that model, but that being said, I guess if 
you give me 3,000 or 4,000 inspectors, we could work that out.
    Senator Akaka. Well, thank you.
    Senator Voinovich, do you have any final questions?
    Senator Voinovich. Yes. Again, I would go back to my home 
town, and it would be interesting to know how many people 
actually are doing policemen's work and how many are doing the 
inspection work. I would just be interested.
    Who does the threat assessment on these buildings?
    Mr. Wright. Inspectors do threat assessments.
    Senator Voinovich. So, somewhere in DHS or FPS, there is a 
file that talks about all the buildings around the country that 
you are responsible for and there is a threat assessment in 
regard to those as to what needs to be done or does not need to 
be done?
    Mr. Wright. Generally, an inspector is given a list of 
buildings to be responsible for. While I was actively in FPS in 
Kansas City, I had a list generally of 18 to 20 buildings. That 
seemed to be the average for Region 6, although I have heard of 
regions where individuals are responsible for 60 buildings.
    Senator Voinovich. OK, but the fact of the matter is that 
initially, there is somewhere an evaluation of where buildings 
are located and the threat assessment. I think you would start 
from there. Then is there any kind of a dynamic updating of 
that on a periodic basis to review it, again to determine the 
threat that might be likely there? Can you answer that?
    Mr. Wright. We are basically working off the DOJ security 
assessment, or Department of Justice Federal Building Security 
Assessment that was accomplished in June 1995. Level 4 is to be 
inspected every 2 years. Level 3 is to be inspected every 3 
years----
    Senator Voinovich. You mean to say that there hasn't been 
an update to the system since September 11, 2001? My logic 
tells me that somebody would look out across the country at the 
buildings and do another threat assessment.
    Mr. Wright. No. We have basically continued on from when 
that cycle began in 1995. The courthouse is evaluated every 2 
years.
    Senator Voinovich. Mr. Chairman, I think we ought to get an 
answer to that question, to know just exactly what the threat 
assessment is with regard to respective buildings around the 
country.
    Mr. Wright. I can say that immediately after September 11, 
2001, and it is always baffling how these things work, that a 
pile of money became available for countermeasures. So I do 
know that in the 3 months after September 11, 2001, I was asked 
what buildings of my building list do I have mandatory 
countermeasures recommended that I could not get paid for, and 
when I named those buildings and I named those countermeasures, 
I got them paid for. That was September 11, 2001 emergency 
funds. So there was that effort to look at countermeasures that 
were on record, recommendations that were on record. Beyond 
that, we have just continued that cycle.
    Senator Voinovich. OK. Who goes out to determine whether or 
not the private contractor that has been hired, in fact, really 
is getting the job done in terms of securing the facility?
    Mr. Wright. We are talking about contract security guards?
    Senator Voinovich. Well, you have got contract security 
guards that have been hired and your people are the interface--
--
    Mr. Wright. Right.
    Senator Voinovich [continuing]. With them, but who 
determines whether or not they have an adequate number of 
people on the job, or better yet, where they are placed and 
other technology or barricades or whatever it is to try and 
make sure that the building actually is secure?
    Mr. Wright. It is the inspector's responsibility to come up 
with those recommendations, those lists, and then it is the 
inspector's responsibility to go to the Building Security 
Committee, which normally is composed of building tenants, and 
say, we need a 24-hour guard here. We need five more cameras at 
these positions. We need hydraulic vehicle barriers at these 
doors. And then you--basically, you have to sell it to them, 
and then someone on that Building Security Committee has to 
come up with the funds somehow, and it doesn't work.
    Senator Voinovich. So the money to take care of the 
problem, all that kind of equipment, say a hydraulic barricade 
like we have here for the Senate and all that kind of stuff, 
that is paid for by the General Service Administration?
    Mr. Wright. The General Service Administration can 
generally front the money and then charge it back to the agency 
in the rent. The most successful I have been, besides September 
11, 2001 emergency money, is to do an assessment, to do my 
recommendations, and to talk to this Building Security 
Committee year after year and say, it is upcoming on your 
budget process. It is important that you share this security 
assessment with your superiors. We need the funding for this. 
Beyond that, every agency pays, whether it is through the rent 
or they don't pay.
    Senator Voinovich. So they get together, decide what to do, 
and then they say to their tenants----
    Mr. Wright. Right.
    Senator Voinovich [continuing]. If you want this, then it 
is going to cost so much money. We will put it in and then you 
guys will amortize the cost over a period of time as a part of 
your rent.
    Mr. Wright. And it is very convoluted and it does not work 
very well at all.
    Senator Voinovich. That is why I am going back to the 
General Service Administration----
    Mr. Wright. Right.
    Senator Voinovich [continuing]. In terms of if they had 
that responsibility, then maybe some of that would be more 
forthcoming.
    I have to tell you something. From what I have heard today, 
I have really got some real concerns about what is going on and 
I think, Mr. Chairman, we have to get some more information 
here.
    Mr. Wright. Well, I express the fullest confidence in the 
officers, the employees that we have left. I have confidence in 
Mr. Schenkel. I will say that he and I do have an open line of 
communication that I do not use very often. I am very 
disappointed when it filters down to the regional directors, 
because what I hear comes out from Mr. Schenkel absolutely does 
not filter down to the ground level.
    Senator Voinovich. Well, get together and talk about it.
    Mr. Wright. OK.
    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to thank you, Mr. Wright, and each of our witnesses 
again for the time that you spent preparing and presenting this 
valuable testimony to the Subcommittee. Your work will help to 
improve the Federal Protective Service.
    It is clear that FPS must focus on rebuilding its 
relationship with its employees. I hope that FPS will continue 
to address its staffing, training, and morale problems. FPS has 
an obligation to act as a responsible employer. Just as 
importantly, these workforce problems can undermine the 
security of Federal buildings and put Federal workers and 
members of the public at risk.
    Additionally, I believe we need to begin to look more 
closely at the FPS's heavy reliance on contract security 
guards. It is clear that FPS does not have enough staff to 
oversee the contract security guards. Moreover, it concerns me 
that even the most high-risk Federal buildings do not have a 
single sworn law enforcement officer on site most of the time. 
Often, having contract workers do Federal employee jobs saves 
little or no money and it creates very serious risks. I hope 
that GAO will look closely at this issue in the next phase of 
its review.
    Finally, FPS's funding should be revised. FPS needs to 
review its rate structure to make it more equitable. I believe 
that Congress should consider an appropriation to cover some of 
FPS's expenses to ensure that we are investing properly in 
Federal building security. GAO's report was eye-opening. It is 
clear that there is an urgent need to address FPS's management 
and operational challenges. This Subcommittee will work to 
address those challenges.
    The hearing record will remain open for 2 weeks for 
additional statements or questions other Members may have.
    This hearing is adjourned.
    [Whereupon, at 3:54 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN

    At today's hearing we will examine challenges facing the Federal 
Protective Service (FPS) in its mission to protect 9,000 Federal 
buildings and 1 million Federal employees all across this country that 
have been detailed in a report released yesterday by the Government 
Accountability Office (GAO) and requested by this Committee last year.
    I have no doubt that the men and women working for the Federal 
Protective Service are dedicated individuals, however, as the GAO 
report details, the problems at FPS are serious. The agency has been 
forced to grapple with expanding responsibilities following the attacks 
of September 11, 2001 in the midst of funding shortfalls and a 
shrinking workforce.
    As the GAO report notes, staff levels have decreased by 20 percent 
since 2004, which inevitably contributes to diminished security and an 
increased risk of crime or terrorist attacks at Federal facilities.
    GAO also found that FPS oversight of its contract guard program has 
continued to lag, with some posts not having been inspected in over a 
year, and that funding challenges and poor financial management have 
handcuffed the FPS--by freezing hiring challenges and poor financial 
management have handcuffed the FPS--by freezing hiring and limiting 
training--and has led to declining morale and safety, increased 
attrition, and poor overall performance.
    Unfortunately, the Administration's proposals to address the 
funding and financial management challenges facing the FPS only appear 
to make the problems worse.
    The proposal to eliminate all FPS officers--but not their duties--
and move to an all inspector-based workforce with responsibilities for 
both inspection and law enforcement would further strain a workforce 
already stressed perilously thin. It's hard to imagine how these 
employees could fulfill the agency's patrol, response and physical 
security roles simultaneously.
    This plan is also likely to increase the burden on local law 
enforcement forced to respond to incidents at Federal facilities; 
something FPS seems to have spent little time discussing with local law 
enforcement.
    Some of the problems highlighted in the GAO report need to be 
addressed by the FPS' customers--other Federal agencies. As the FPS 
continues to work to secure Federal property and personnel, by 
assessing the physical security of Federal facilities and recommending 
security countermeasures to address vulnerabilities, Federal agencies 
need to heed FPS' advice and implement and maintain those 
countermeasures.
    However, it is also unacceptable that the FPS has allowed security 
countermeasures it controls, like cameras and metal detectors, to fall 
into disrepair.
    These problems have not sprung up overnight, and they can't be 
fixed overnight, but I am committed to working with DHS and the FPS to 
address the challenges highlighted by GAO.
    We should begin by ensuring the agency has the support it needs to 
fulfill its mission. FPS' increase of the basic security fee it charges 
agencies for its services is an important first step towards providing 
financial stability for the agency.
    Now the FPS needs to implement GAO's recommendations, and develop 
and implement a strategy and staffing plan, clarify the roles and 
responsibilities of local law enforcement agencies, assess the agency's 
methodology for charging fees for services, develop standards for 
measuring performance and improve its ability to collect and analyze 
relevant data.
    I look forward to reviewing the testimony of today's witnesses: FPS 
Director Gary Schenkel, employees' representative Inspector David 
Wright, and U.S. Government Accountability Office (GAO) representative 
Mark Goldstein.
    The Federal Protective Service is a crucial, but often overlooked, 
component of the Department of Homeland Security. The shortcomings 
highlighted by GAO are serious, and it's important that Congress work 
with the agency to meet these challenges head on.
    I look forward to working with my colleagues on the Committee, DHS 
and the FPS on these issues.

[GRAPHIC] [TIFF OMITTED] T4118.001

[GRAPHIC] [TIFF OMITTED] T4118.002

[GRAPHIC] [TIFF OMITTED] T4118.003

[GRAPHIC] [TIFF OMITTED] T4118.004

[GRAPHIC] [TIFF OMITTED] T4118.005

[GRAPHIC] [TIFF OMITTED] T4118.006

[GRAPHIC] [TIFF OMITTED] T4118.007

[GRAPHIC] [TIFF OMITTED] T4118.008

[GRAPHIC] [TIFF OMITTED] T4118.009

[GRAPHIC] [TIFF OMITTED] T4118.010

[GRAPHIC] [TIFF OMITTED] T4118.011

[GRAPHIC] [TIFF OMITTED] T4118.012

[GRAPHIC] [TIFF OMITTED] T4118.013

[GRAPHIC] [TIFF OMITTED] T4118.014

[GRAPHIC] [TIFF OMITTED] T4118.015

[GRAPHIC] [TIFF OMITTED] T4118.016

[GRAPHIC] [TIFF OMITTED] T4118.017

[GRAPHIC] [TIFF OMITTED] T4118.018

[GRAPHIC] [TIFF OMITTED] T4118.019

[GRAPHIC] [TIFF OMITTED] T4118.020

[GRAPHIC] [TIFF OMITTED] T4118.021

[GRAPHIC] [TIFF OMITTED] T4118.022

[GRAPHIC] [TIFF OMITTED] T4118.023

[GRAPHIC] [TIFF OMITTED] T4118.024

[GRAPHIC] [TIFF OMITTED] T4118.025

[GRAPHIC] [TIFF OMITTED] T4118.026

[GRAPHIC] [TIFF OMITTED] T4118.027

[GRAPHIC] [TIFF OMITTED] T4118.028

[GRAPHIC] [TIFF OMITTED] T4118.029

[GRAPHIC] [TIFF OMITTED] T4118.030

[GRAPHIC] [TIFF OMITTED] T4118.031

[GRAPHIC] [TIFF OMITTED] T4118.032

[GRAPHIC] [TIFF OMITTED] T4118.033

[GRAPHIC] [TIFF OMITTED] T4118.034

[GRAPHIC] [TIFF OMITTED] T4118.035

[GRAPHIC] [TIFF OMITTED] T4118.036

[GRAPHIC] [TIFF OMITTED] T4118.037

[GRAPHIC] [TIFF OMITTED] T4118.038

[GRAPHIC] [TIFF OMITTED] T4118.039

[GRAPHIC] [TIFF OMITTED] T4118.040

[GRAPHIC] [TIFF OMITTED] T4118.041

[GRAPHIC] [TIFF OMITTED] T4118.042

[GRAPHIC] [TIFF OMITTED] T4118.043

[GRAPHIC] [TIFF OMITTED] T4118.044

[GRAPHIC] [TIFF OMITTED] T4118.045

[GRAPHIC] [TIFF OMITTED] T4118.046

[GRAPHIC] [TIFF OMITTED] T4118.047

[GRAPHIC] [TIFF OMITTED] T4118.048

[GRAPHIC] [TIFF OMITTED] T4118.049

[GRAPHIC] [TIFF OMITTED] T4118.050

[GRAPHIC] [TIFF OMITTED] T4118.051

[GRAPHIC] [TIFF OMITTED] T4118.052

[GRAPHIC] [TIFF OMITTED] T4118.053

[GRAPHIC] [TIFF OMITTED] T4118.054

[GRAPHIC] [TIFF OMITTED] T4118.055

[GRAPHIC] [TIFF OMITTED] T4118.056

[GRAPHIC] [TIFF OMITTED] T4118.057

[GRAPHIC] [TIFF OMITTED] T4118.058

[GRAPHIC] [TIFF OMITTED] T4118.059

[GRAPHIC] [TIFF OMITTED] T4118.060

[GRAPHIC] [TIFF OMITTED] T4118.061

[GRAPHIC] [TIFF OMITTED] T4118.062

[GRAPHIC] [TIFF OMITTED] T4118.063

[GRAPHIC] [TIFF OMITTED] T4118.064

[GRAPHIC] [TIFF OMITTED] T4118.065

[GRAPHIC] [TIFF OMITTED] T4118.066

                                 <all>

</pre></body></html>
